Supreme Court, U.S.
FILED

DEC 0 1 2020
OFFICE OF THE CLERK

No.

In the
SUPREME COURT OF THE UNITED STATES
GEOFFREY M. YOUNG, pro se, Petitioner
vs.
KENTUCKY AUTHORITY FOR EDUCATIONAL
TELEVISION, TODD PICCIRILJpI,
DONNA MOORE CAMPBELL, Respondents
Christopher W. Brooker, Counsel of Record
Wyatt, Tarrants & Combs, LLP
400 West Market Street, Suite 2000
Louisville, Kentucky 40202
(502) 589-5235; cbrooker@wyattfirm.com
On Petition for Writ of Certiorari to the
Supreme Court of Kentucky
PETITION FOR WRIT OF CERTIORARI
Geoffrey M. Young, Petitioner
454 Kimberly Place
Lexington, Kentucky 40503
energetic22@yahoo.com
(859) 278-4966

RECEIVED
JAN 2 2 2021
OFFICE OF THE Cl EPK
SUPREME COURT U.V.

QUESTIONS PRESENTED FOR REVIEW
1) If a trial court never construes the
allegations in a civil complaint favorably to the
plaintiff or never construes them at all, are all of its
Civil Rule (CR) 12.02(f) dismissal orders and CR 11
sanctioning orders against the plaintiff nullities?
2) May the Supreme Court of Kentucky order
an appellant to file a brief, decide the appeal before
the brief is filed, call the appellant's timely-filed brief
a “miscellaneous correspondence styled as a brief,”
ignore the appellant's timely-filed response to the
Court's show cause order, and sanction the appellant
on the grounds that he never showed cause why he
should not be sanctioned?

11

LIST OF PARTIES
1)

GEOFFREY M. YOUNG, pro se, Petitioner

2)

KENTUCKY AUTHORITY FOR EDUCA­
TIONAL TELEVISION, Respondent

3)

TODD PICCIRILLI, Respondent

4)

DONNA MOORE CAMPBELL, Respondent
LIST OF PROCEEDINGS

1)

2019-SC-0625-I, Geoffrey M. Young v. Adam
Edelen, etal., Final Order, October 29, 2020.
Included herein as Appendix (App.) at al-a5.

2)

2019-SC-0625-I, Order Enforcing Sanctions,
April 30,2020, App. at a5-a7.

3)

2019-SC-0625-I, Geoffrey M. Young v. Adam
Edelen, et al., Memorandum Opinion and
Order Denying Interlocutory Relief and
Ordering Show Cause, February 20, 2020.

4)

2019-CA-1266-I, Geoffrey M. Young v. Adam
Edelen et al., Final Order Denying Interlocu­
tory Relief, entered October 24, 2019.

5)

Fayette Circuit Court, Case No. 19-CI-01349,
Geoffrey M. Young v. Adam Edelen et al.,
Final Order entered September 10, 2019.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

LIST OF PARTIES

11

LIST OF PROCEEDINGS

11

m

TABLE OF CONTENTS
TABLE OF CITED AUTHORITIES

m-iv

CONSTITUTIONAL PROVISIONS, STATUTES
AND POLICIES AT ISSUE.......................

1

JURISDICTION

1

STATEMENT OF THE CASE

2-42

REASONS WHY CERTIORARI SHOULD BE
GRANTED............................................. 42-43
CONCLUSION

43-44

APPENDIX

al-a5

TABLE OF CITED AUTHORITIES
Chesley v. Abbott, 503 S.W.3d 148,152 (Ky. 2016)..
.............................................................................. 15,17
Leimer v. State Mut. Life Assur. Co., 108 F.2d 302,
29
305 (8th Cir. 1940)

V.!
A

IV

City of Covington v. Peare, 769 S.W.2d 761, 764
19-20, 22, 26-27, 36
(1989)
Pari-Mutuel Clerks'Union v. Ky. Jockey Club, 551
31, 38
S.W.2d 801, 803 (Ky. 1977)
Scheuer v. Rhodes, 416 U.S. 232, 236 (1974)

3

Winget v. Rockwood, 8 Cir., 69 F.2d 326, 329 .... 29
CR 8.01 Claims for Relief
CR 8.06 Construction of Pleadings

3,4
3

CR 11 Signing of Pleadings, Motions, and Other
3, 5,11,13, 22, 29, 30
Papers; Sanctions
CR 12.02(f): failure to state a claim upon which relief
4,12, 32, 36
can be granted
CR 54 Judgments; Costs

19, 20, 27

CR 59 New Trials; Amendment of Judgments. 11, 14
CR 73.02 (4) (Appeals) When and how taken..........
..................................................... 15,16, 17, 21, 27, 40
CR 75 Record on Appeal

16

Kentucky Constitution Section 7

: 10

Kentucky Constitution Section 14

28

1
CONSTITUTIONAL PROVISIONS, STATUTES
AND POLICIES AT ISSUE
U.S. Const. Amend. XTV, sec. 1, specifies, in
pertinent part, that:
No State shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United
States; nor shall any State deprive any
person of life, liberty, or property,
without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws.
JURISDICTION
The jurisdiction of this Court is invoked under
28 U.S.C. § 1257(a) because the Supreme Court of
Kentucky violated my Fourteenth Amendment rights
to property and to due process. The Supreme Court
of Kentucky issued its order enforcing sanctions on
April 30, 2020 and entered its final order deciding
my motion for reconsideration on October 29, 2020.
A copy of the final order is in the Appendix (App.).

2

STATEMENT OF THE CASE
On April 10, 2019,1 filed a 123-page complaint
against 23 individual defendants and ten
organizational defendants, including the Kentucky
Democratic Party (KDP), for illegally conspiring to
rig the 2019 Democratic primary for Governor and
several other Democratic primaries against me
dating back to 2014; illegally conspiring to violate my
freedom of speech, freedom of association and
freedom of movement within Kentucky; and illegally
conspiring to have me assaulted and battered by
Defendant Mike Shugart, a retired police officer, on
September 8, 2018 in Georgetown, Kentucky. I
requested extensive declaratory, monetary and
injunctive relief, presented a great many pertinent
factual allegations and a coherent theory of the case,
and requested a jury trial.

3

In its decision in Scheuer v. Rhodes, 416 U.S.
232, 236 (1974), this Court instructed as follows:
[I]t is well established that, in passing
on a motion to dismiss, whether on the
ground of lack of jurisdiction over the
subject matter or for failure to state a
cause of action, the allegations of the
complaint should be construed favorably
to the pleader.
The Fayette Circuit Court, Division 4 (former
Judge John E. Reynolds, who lost his election in
November 2019) never construed any of the
allegations in my complaint in my favor. In fact, the
trial court never construed any of the allegations in
my complaint at all. See Kentucky Civil Rules (CR)
8.01 and 8.06. The judge simply ignored my
allegations of fact and law and mechanically signed
every dismissal order and order for CR 11 sanctions
tendered by the defendants' 17 attorneys. He
thereby failed and refused to do his most important

4
job when confronted with a motion to dismiss for
failure to state a claim upon which relief can be
granted. See CR 12.02(f). Despite five months of
initial pleadings, the trial court never moved the
case out of the initial part of the initial pleadings
stage and into the discovery stage, much less the
pretrial or trial stages. The initial pleadings stage is
the stage at which I raised the federal question
sought to be reviewed: whether any trial court in the
United States may dismiss a complaint for failure to
state a claim without ever construing the plaintiff s
complaint in the light most favorable to the plaintiff.
I contend that when the circuit court refused for five
months to make any finding as to whether my
complaint met the requirements of Kentucky Civil
Rule 8.01, it violated my right to due process under
the Fourteenth Amendment.

5

On May 1, 2019, the Kentucky Authority for
Educational Television (“KET”), Todd Piccirilli, and
Donna Moore Campbell filed a motion to dismiss and
motion for CR 11 sanctions and noticed it to be heard
on May 17, 2019. It included the following
paragraph:
These pleaded facts do not give rise to
any viable claim against the KET
Defendants. Importantly, Young does
not allege (nor could he allege) that
KET's responses to his questions about
the criteria were false or inaccurate.
Nor does he allege (nor could he allege)
that KET adopted its criteria for any
reason other than what it stated when
to
answering Young's questions
provide the best possible services to its
The fact that KET is
viewers.
employing criteria that Young dislikes
does not mean that it has done anything
wrong, nor does it mean that KET
“joined” a nefarious conspiracy. For all
his demeaning rhetoric, Young simply
states no cognizable claim against
KET... Here, Young does not plead any
facts supporting a viable claim against
the KET Defendants. [Motion to

r.

6
Dismiss at 4; emphasis in original]
In my response of May 13, 2019, however, I
stated that my complaint clearly alleged facts that
plausibly suggest that the KET Defendants joined
the alleged conspiracy to violate my civil rights and
rig a series of Democratic primaries. I cited several
examples from my complaint, provided the page
numbers, and accused the KET Defendants of falsely
claiming, by counsel, that I never alleged what I had
alleged.
On May 17, 2019, the Court held Motion Hour
#2, at which the following dialogue took place:
Attorney Chris Brooker (at 11:03:10
am): Your Honor, Chris Brooker, for
what I refer to as the KET Defendants.
Mr. Young has sued KET, the television
station, Todd Piccirilli, its Director of
Communications, and Donna Moore
Campbell, who is one of the board
members at KET...

7

Judge Reynolds (11:06:13): What were
the, um, did you (asking Chris Brooker)
look at the Jefferson County file?
Brooker: Yes, Your Honor.
Judge Reynolds: What was he
sanctioned for that?
Brooker: He was sanctioned for bringing
baseless and meritless claims Judge Reynolds: What I mean, what
was the cost?
Brooker: The attorney's fees.
Young: Which were zero dollars. The
attorneys never submitted a bill Judge Reynolds (interrupting): Oh they
didn't? Okay.
Young: ...to the court, and the reason is,
I caught them lying to the Supreme
Court of Kentucky and they didn't want
to risk —
Judge Reynolds (interrupting): All
right. I don't want to get into all that.
Young: Okay.

8
Judge Reynolds (11:06:41): Mr. Young,
tell me what statute, what law are you
relying on as a cause of action in your
complaint against KET?
Young: Conspiracy
freedom of speech, -

to

violate

my

Judge Reynolds (interrupting): Okay.
Young: Conspiracy to violate my
freedom of movement within the United
States, conspiracy to violate my, um, ok
there was another one having to do with
my being barred continuously from
Party offices.
[sic:
freedom
of
association]
Every
constitutional
violation in the 123-page complaint, I'm
alleging against the KET Defendants
and every other Defendant, because
that is what a conspiracy is.
Judge Reynolds (11:07:43): Okay, (to
Chris Brooker): Your motion will be
granted. Submit an affidavit of cost.
Brooker: Yes, Your Honor.
Young: So it's okay to conspire to
I hadn't
assault and batter me?
finished answering that question. I was
assaulted and battered on September
28, 2018 (sic: the actual date was

9
September 8, 2018). It's, it's, granting a
motion to dismiss is the ultimate
sanction, Your Honor, it's the ultimate
sanction, and —
Judge Reynolds (to someone else): Was
that resolved?
Young: And it has to, a motion to
dismiss has to, um, pass the hurdle of
the, uh, standard of review.
Judge Reynolds (11:08:25): Sir, you're
asking for relief that doesn't exist under
the law for this Court. Okay? I can't
grant you the relief under those causes
of action. It doesn’t exist.
Chris Brooker (at 11:10:32): Your
Honor, I do have an order to tender on
that, and it contemplated that I will be
submitting an affidavit along with that.
Judge Reynolds: Okay.
Young: What will your affidavit be
about?
Judge Reynolds: His costs, for having to
appear and respond to these matters.
The former judge appears to have been

10
completely unfamiliar with the concept of a standard
of review that all judges in the United States must
apply when deciding motions to dismiss for failure to
state a claim upon which relief can be granted. It
took me several weeks to figure out that what the
judge was actually saying, in effect, was this: “I don't
care what you wrote in your complaint or in any
other pleading you might file, or about anything you
might say in my courtroom. I, Circuit Judge John E.
Reynolds, am never going to allow your case to come
before a jury.” See Kentucky Constitution Section 7.
On May 21, 2019, the circuit court entered an
order, tendered by attorneys Christopher W. Brooker
and Deborah H. Patterson, that granted the
dismissal of all of my claims against Defendants
Kentucky Authority for Educational Television, Todd
Piccirilli, and Donna Moore Campbell and granting

11
sanctions to “reimburse the KET Defendants their
reasonable attorneys' fees and costs for defending
against this action.” The last sentence of the order
read, “This order is final and appealable with no just
reason for delay.” Dismissal and Sanctioning Order
at 2.
On May 28, 2019,1 filed a CR 59 motion to
vacate that order. On June 12, 2019, the circuit
court entered a one-page order denying my motion.
It included no legal argument whatsoever as to why
my motion was being denied, and its final sentence
read, “This is a final and appealable order with no
just cause for delay.”
On August 9, 2019, the circuit court entered
an order which had been tendered by attorneys
Patterson and Brooker awarding CR 11 sanctions to
the KET Defendants in the amount of $23,425.36. It

12
included no legal argument whatsoever, and its final
sentence read, “This is a final and appealable order
with no just cause for delay.” I never received a copy
of the signed order in the mail and never learned
what it said until a week after I had filed a notice of
appeal that appealed substantially all of the former
judge's orders (24 orders) on September 23, 2019.
On August 15, 2019,1 filed a motion asking
former judge John E. Reynolds to recuse himself and
transfer the entire case to a different judge on the
grounds that he had no idea how to decide CR
12.02(f) motions to dismiss according to the laws of
the Commonwealth of Kentucky and had already
entered numerous manifestly erroneous orders. That
motion was not granted.
On August 20, 2019, Christopher W. Brooker
and Deborah H. Patterson garnished $23,425.36

13
from my checking, account on the grounds that the
trial court had granted the KET Defendants a
summary judgment of that amount. However, no
summary judgment (CR 56) had ever been entered.
The KET Defendants, by counsel, garnished a
significant fraction of my life savings under false
pretenses, and the circuit court denied due process.
On August 26, 2019,1 filed a motion for
interlocutory relief prior to final judgment in the
Court of Appeals, which initiated Civil Action No.
2019-CA-01266-1. Eight days later, on September 3,
2019,1 filed a cross-motion in the circuit court for CR
11 sanctions against Chris Brooker and Deborah
Patterson in the amount of $46,850.72, which was
double the amount they had garnished from my
checking account under false pretenses. On
September 10, 2019, the circuit court entered an

14
Order denying my cross-motion for sanctions. It
included no legal argument whatsoever.
On September 19, 2019,1 filed a CR 59 motion
to vacate that circuit court order and two others
entered on September 10 and 11. On September 23,
2019,1 filed a notice of appeal in the Fayette Circuit
Court, and on October 2, 2019,1 filed a prehearing
statement of appeal against 24 circuit court orders in
the Court of Appeals. That appeal is still before the
Kentucky Court of Appeals today, which fact
represents justice delayed, justice denied, and a
violation of Section 14 of the Kentucky Constitution.
On October 24, 2019, without ever reaching
the question of whether the circuit court's orders of
May 21, June 12 and September 10, 2019 were
reversible errors and therefore nullities, a threejudge panel of the Court of Appeals - Chief Judge

15
Denise G. Clayton and Judges Donna L. Dixon and
Jonathan Ray Spalding - entered an order denying
my request for interlocutory relief. The sole ground
for denial was that “[as] a prerequisite for obtaining
interlocutory relief from an order of the circuit court
under CR 65.07 or CR 65.09, the order at issue must
be an injunction.” Chesley v. Abbott, 503 S.W.3d 148,
152 (Ky. 2016). Order at 3.
On October 29, 2019,1 filed a motion in the
Supreme Court of Kentucky to vacate the Court of
Appeals' denial order. The Supreme Court assigned
it Case No. 2019-SC-0625-I. On November 12, 2019,
attorneys Deborah H. Patterson and Christopher W.
Brooker filed “KET Respondents' Motion for CR
73.02 Sanctions and Its (sic) Response to Geoffrey M.
Young's Frivolous Motion to Vacate Order Denying
Interlocutory Relief.” On November 18, 2019,1 filed

16
a response to the KET Defendants' motion for CR
73.02 sanctions and a cross-motion for CR 73.02
sanctions against attorneys Patterson and Brooker.
On January 9, 2020, the Supreme Court of
Kentucky entered an “Order Dispensing with Oral
Argument” that consisted of the following sentence:
“Pursuant to CR 76.16, it is directed that this appeal
be submitted on the briefs without oral argument.”
On January 23, 2020,1 duly mailed a
Designation of the Proceedings to the Supreme Court
of Kentucky, as required by CR 75.01(1), and it was
marked “Received” on January 29, 2020. The due
date for filing my appellant's brief was supposed to
be within 60 days after the Clerk of the Fayette
Circuit Court completed and certified the record on
appeal. CR 75.07(6). Before that could occur,
however, on February 20, 2020, the Supreme Court

17
of Kentucky short-circuited the appellate process by
entering a Memorandum Opinion and Order
Denying Interlocutory Relief and Ordering Show
Cause. It was marked, “NOT TO BE PUBLISHED.”
The Supreme Court of Kentucky upheld the Court of
Appeals' order of October 24, 2019 denying my
request for interlocutory relief on the sole ground
that “[as] a prerequisite for obtaining interlocutory
relief from an order of the circuit court under CR
65.07 or CR 65.09, the order at issue must be an
injunction.” Chesley v. Abbott, 503 S.W.3d 148, 152
(Ky. 2016). Memorandum Opinion and Order at 5-7.
The Supreme Court of Kentucky also granted the
KET Defendants' motion to impose CR 73.02(4)
sanctions against me. Id. at 7-10. The Memorandum
Opinion and Order concluded as follows:
“III.

CONCLUSION

18
For the foregoing reasons we
affirm the Court of Appeals' denial of
Young's motion for interlocutory relief.
We further order that the KET
defendants submit an affidavit as to
attorney's fees incurred in defending
this action on appeal. Young shall
thereafter show cause as to why his
appeal to the Court of Appeals and to
this Court were not frivolous and why
he should not be charged with paying
all or part of the KET defendants'
attorney's fees, and further why he
should not be enjoined from filing any
further cases against KET, or any of its
employees or representatives, in any
Kentucky court without prior court
approval.” Id. at 10-11.
In other words, after ordering me to file an
appellant's brief, the Supreme Court of Kentucky
decided the central elements of the appeal before any
briefs had been filed. On March 3, 2020,1 timely
filed my brief, and on March 10, 2020,1 timely filed
my response to the Court's show cause order, as well
as a cross-motion for sanctions against the KET

19
Appellees and their attorneys. No other party filed a
brief.
In my March 3, 2020 brief, I argued as follows:
The Court of Appeals should have
decided the question of whether the
former judge's Order of May 21 was
reversible error before addressing any
other question of law.
In City of Covington v. Peare, 769
S.W.2d 761, 764 (1989), the Court of
Appeals ruled that not all orders that
include the recitation that “the
judgment is a final one and there is no
just reason for delay” are necessarily
final orders within the meaning of CR
54.01 or CR 54.02. The Court's reason­
ing in City of Covington v. Peare was:
It follows, therefore, that the
trial court's judgment ordering
the appellant City to recom­
pute Peare's and Vastine's
retirement annuity and fur­
ther ordering certain atten­
dant incidental conditions, and
not ordering the Board to do
so, are all nullities because the
City is not empowered to do so.
Consequently, in this, a case

20

involving multiple parties,
because the trial court has not
in fact made a conclusive
determination of the entire
claim of any of the parties, the
judgment is not a final order
within the meaning of CR
54.01 or CR 54.02. This is true
even though the trial court has
recited that the judgment is a
final one and there is no just
reason for delay as provided
for in CR 54.02. See Hale v.
Deaton, Ky., 528 S.W.2d 719
(1972); Northwestern National
Ins. Co. v. Osborne, 573
F.Supp. 1045 (E.D.Ky. 1983).
This appeal is, therefore,
dismissed and the case is
remanded to the Kenton
Circuit Court. Upon proper
motion of the parties so to do,
it shall enter summary
judgment in favor of Peare and
Vastine identical to that
already entered but against
the defendant, the Board of
Trustees of the Policemen's
and Fire Fighters Retirement
Fund of the City of Covington,
and including the provisions of
the trial court's order entered

21
6,
1987,
but
November
specifying that the postjudgment interest begin upon
entiy of the new judgment.
All concur. Id. at 764
In this case, the trial court's order of
May 21, 2019, was a nullity because the
former judge violated CR 8 by refusing
ever to review my Complaint to
determine whether it was well-pleaded,
i.e., whether it adequately put the KET
Defendants on notice of what I would
attempt to prove to the jury.
Appellant's/Petitioner's Brief at 10-11.
In my March 10, 2020 response to the show
cause order and cross-motion for CR 73.02 sanctions,
I made the following arguments:
This Court should not impose any
sanctions on me and should sanction
the KET Appellees for defrauding three
courts in this case (so far).
Former circuit court judge John
E. Reynolds unlawfully usurped the role
of the (future) jury, refused to apply
Civil Rule 8 according to law, entered a
manifestly erroneous dismissal and

22
sanctions order on May 21, 2019,
violated CR 11 and CR 12, never moved
the lawsuit out of the initial part of the
initial pleadings stage, almost never
gave any reasons for his conclusory
ordering paragraphs, never discussed
any of the pleadings during any motion
hour, denied four of my motions in a
matter of seconds during Motion Hour
#5 on June 7, 2019, demonstrated
extreme bias against me during
virtually every one of the 13 motion
hours, and entered 24 erroneous orders
between May 10 and October 4, 2019. If
none of the former judge's dismissal or
sanctions orders were lawful, then none
of them were legitimate final orders.
They were all nullities, in the words of
the decision in City of Covington v.
Peare, 769 S.W.2d 761, 764 (Ky. Ct.
App. 1989) The Court of Appeals should
never have reached the question of
whether these null and void orders were
injunctions. Young's Response at 4.
In my brief, I argued that the
KET Defendants, by counsel, made
many false statements in their May 1,
2019 motion to dismiss and for
sanctions, that those false statements
were reflexively repeated by the former
judge in his Order of May 21, and that
the KET Defendants are the ones who

23

should have been ordered to pay CR 11
The nine most
sanctions to me.
important false statements, which
counsel for the KET Defendants knew
or should have known were false, were:
(1) “These pleaded facts do not
give rise to any viable claim
against the KET Defendants.”
Motion to Dismiss and for
Sanctions at 4; (2) “Young
simply states no cognizable
claim against KET...” Id. at 4-5
On March 18, 2020, the Clerk of the Supreme
Court of Kentucky mailed one copy of my appellant's
brief back to me with a cover letter that read,
“APPELLANT'S MISCELLANEOUS CORRESPON­
DENCE STYLED AS A BRIEF.” On the web site of
the Kentucky Supreme Court's “Docket Entries”
page, the following notation appeared: “FILED
APPELLANT’S MISCELLANEOUS CORRESPON­
DENCE STYLED AS A BRIEF. RECEIVED ON
3/3/2020.” So after ordering me to file a brief and

24
then deciding the appeal before receiving my brief,
the Supreme Court of Kentucky gave itself an excuse
to ignore every legal argument I made in my brief by
mislabeling it “miscellaneous correspondence.”
On April 30, 2020, the Supreme Court of
Kentucky entered an Order Enforcing Sanctions that
consisted of the following two short paragraphs:
Appellant Geoffrey Young was
ordered by this Court to show cause
why his appeal to this Court from the
Court of Appeals was not frivolous
under Kentucky Rule of Civil Procedure
73.04(4). In his response, Young failed
to make any argument as to why said
appeal was not frivolous.
Accordingly, Young is now ordered
to reimburse Kentucky Authority for
Educational Television (KET) for its
attorney's fees totaling $13,108.95
which KET incurred while defending
this frivolous appeal. Said sum shall be
paid within ninety (90) days from the
entry of this order. See Appendix 2.
On May 12, 2020,1 timely filed a motion for

25
reconsideration in the Supreme Court of Kentucky
that made the following arguments:
1) In its dismissal Order of October 24,
2019, the Court of Appeals ignored all of
these arguments I had made.
Specifically, it ignored and refused to
discuss the central controversy, which is
the question of whether the Fayette
Circuit Court's dismissal and sanctions
Order of May 21, 2019 was a legitimate
final order or was reversible error in its
entirety. The outcome of my entire
motion for interlocutory relief hinges on
the resolution of that question, and the
Court of Appeals never adjudicated it.
Motion at 10.
2) One full month before the Court of
Appeals entered its erroneous Order, on
September 23, 2019, I filed a notice of
appeal of 24 orders entered by the
circuit court. On October 2, 2019,1 filed
a civil appeal prehearing statement that
included 25 attachments: my original
Complaint of April 10, 2019 and the 24
orders I was appealing. The Court of
Appeals has not taken any action
whatsoever to decide that appeal. Some
of the Defendants filed motions to
dismiss the entire appeal, which
stopped the clock on further steps. I

t

26

submitted responses to each such
motion to dismiss and asked the Court
of Appeals to deny all of the defendants'
motions to dismiss the appeal on the
grounds that if the Court of Appeals
were to grant their motions, it would be
depriving me of my only appeal as of
right with regard to those 24 orders, for
no lawful or constitutional reason. One
of those orders, Attachment #4, was the
former judge's dismissal and sanctions
order dated May 21, 2019. The Court of
Appeals' failure and refusal to deny all
of the defendants' frivolous motions to
dismiss my appeal was reversible error.
Id. at 10-11.
3) After denying the defendants'
frivolous motions to dismiss my appeal
of 24 orders, the Court of Appeals
should have stopped working on my
motion for interlocutory relief and
turned its full attention to deciding the
regular appeal, Case No. 2019-CA001443. Why? Because if all 24 Orders
entered by former judge John E.
Reynolds contained reversible errors,
then all of those orders, including
Attachment #4, were nullities. If the
circuit court's May 21, 2019 dismissal
and sanctions order was a legal nullity,
then the question of whether it was an
injunction would have been moot. City

27

of Covington v. Peare, 769 S.W.2d 761,
764 (Ky. Ct. App. 1989). That decision
instructed as follows:
Consequently, in this, a case
involving multiple parties,
because the trial court has not
in fact made a conclusive
determination of the entire
claim of any of the parties, the
judgment is not a final order
within the meaning of CR
54.01 or CR 54.02. This is true
even though the trial court has
recited that the judgment is a
final one and there is no just
reason for delay as provided
for in CR 54.02.
The Supreme Court of Kentucky took no action
on my appeal for 66 days. On July 6, 2020,1 mailed
a check for $13,108.95 to the Kentucky Authority for
Educational Television (KET) so the Supreme Court
of Kentucky would not sanction me even more.
On July 15, 2020,1 mailed out a Request to
Amend my Cross-Motion for CR 73.02 Sanctions and

23
Amended Cross-Motion for CR 73.02 Sanctions
Against Only the KET Appellees and Their Lawyers.
The Supreme Court of Kentucky filed my pleading on
July 23, 2020.
My request contained some new arguments:
Memorandum
Court's
This
Opinion and Order of February 20, 2020
includes a sentence that is contrary [to]
Section 14 of Kentucky's Constitution,
which reads as follows:
Right of judicial remedy for
injury - Speedy trial.
All courts shall be open, and
every person for an injury done
him in his lands, goods, person
or reputation, shall have
remedy by due course of law,
and
justice
right
and
administered without sale,
denial or delay.
Text as Ratified on: August 3,
1891, and revised September
28,1891.”
The legally unjustified sentence

29
reads: “It would therefore be well within
this Court's discretion to enjoin Young
from filing any cases against KET, or
any of its employees or representatives,
in any Kentucky court without prior
court approval.” Memorandum Opinion
and Order at 10. The reason this threat
by the Court is unjustified is that no
court — the circuit court, the Court of
Appeals, or this Court — has yet applied
the long-established standard of review
that must be used when a defendant
files a motion to dismiss for failure to
state a claim. The decision in Leimer v.
State Mut. Life Assur. Co., 108 F.2d
302, 305 (8th Cir. 1940) instructed as
follows:
Long before the Rules of Civil
Procedure for the District
Courts of the United States
became effective, this Court
had frequently disapproved the
practice of attempting to put
an end to litigation, believed to
be
without
merit,
by
dismissing a complaint for
insufficiency of statement. In
Winget v. Rockwood, 8 Cir., 69
F.2d 326, 329, we said:
"A suit should not ordinarily
be disposed of on such a

30
motion [a motion to dismiss
the bill for want of equity]
unless it clearly appears from
the allegations of the bill that
it must ultimately, upon final
hearing, be dismissed. To
warrant such dismissal, it
should appear from the
allegations that a cause of
action does not exist, rather
than that a cause of action has
been defectively stated.
[Emphasis added]
In this case, several causes of
action clearly exist... If the KET
Defendants had conspired with each
other, with the KDP Defendants, and/or
with the other Defendants to design a
debate criterion that they knew I would
be unable to meet, they would have
been engaging in a conspiracy to rig the
entire primary, which is unlawful in
Kentucky. See KRS 118.105(1). If
Donna Moore Campbell, then a board
member of the Kentucky Authority for
Educational Television, had used her
powerful position in The Women's
Network to make sure I would be heard
by a much smaller audience than the
large audience that heard Establish­
ment favorites Jim Gray, Amy McGrath
and Reggie Thomas in the 2018 primary

31
for the U.S. House of Representatives,
and if she had also used her influence at
KET to make the 2019 debate criteria
harder for me to meet, she would have
been conspiring to rig two primaries. If
Amy McGrath had conspired with Adam
Edelen and Mike Shugart to have me
assualted and battered in Georgetown
on September 8, 2018, and the KET
Defendants had then conspired to
unlawfully keep me out of the 2019
gubernatorial debate in which Adam
Edelen was a candidate, the KET
Defendants would again have become
plausibly implicated in violating my
freedom of speech and freedom of
assembly in 2018 and 2019. None of
these allegations are frivolous. In order
to defeat any motion to dismiss, my
allegations and legal theories must be
plausible (as opposed to merely
possible), and all of them were and are
plausible. Pari-Mutuel Clerks' Union v.
Ky. Jockey Club, 551 S.W.2d 801, 803
(Ky. 1977). All of the KET Defendants'
motions to dismiss and for sanctions are
so lacking in merit that they appear to
have been made in bad faith. That has
been true since May 1, 2019. Young's
Request at 6-7.
In the context of the foregoing information, it

32

is now possible to address the October 29, 2020 final
denial order entered by the Supreme Court of
Kentucky. It was written by Chief Justice John D.
Minton Jr. The Chief Justice wrote:
Although the response was due within
thirty days of the rendition of our
Opinion and Order, Young failed to
mention the proposed sanctions until
the July 23, 2020, filing of his motion to
amend his cross-motion for sanctions.
App. at a3-a4.
However, in my March 3, 2020 “Miscellaneous
Correspondence Styled As A Brief,” I wrote:
I never alleged or “admitted” that KET's
$50,000 candidate invitation criterion
was the foundation of all of my claims
against the KET Defendants. That
“finding” by the former judge was based
on nothing but a he the KET
Defendants, by counsel, had included in
their motion to dismiss and for
sanctions. Moreover, counsel knew or
should have known that it was false;
but they repeatedly made that
statement in reckless disregard for the
truth, which constitutes sanctionable

33

behavior. Appellant's Brief at 15.
I wrote:
As a matter of logic, if the May
21, 2019 dismissal and sanctions Order
was based on at least four materially
false statements about my Complaint,
and if the order was therefore reversible
error, it doesn't matter whether it was a
final order or an interlocutory order.
The Court of Appeals should have
analyzed my Complaint, found and
declared that it was well-pleaded with
respect to the alleged conspiracy as a
whole and to all of the Defendants,
found and declared that the former
judge's May 21, 2019 Order was a
nullity, remanded the entire case to the
Fayette Circuit Court, Division 4, and
granted my request for full repayment
of the amount the KET Defendants had
garnished from my checking account,
plus the $100.00 service fee, plus
interest since August 20, 2019. Id. at
17-18.
I wrote:
The Court of Appeals should have
found and declared in writing that the
KET Defendants, by counsel, garnished
$23,425.36 (plus a $100.00 service fee

34
paid to the Commonwealth Credit
Union) of my money under false
pretenses. Instead, it merely made an
incomplete recital of a set of events in
the first full paragraph on page 3 of its
Order of October 24, 2019 without
deciding the question of whether the
notice of judgment lien contained a
material falsehood about the procedural
facts of the case. Id. at 19.
I specifically addressed the passage in the
Kentucky Supreme Court's show cause order that
stated, “Young did not challenge the amount
contained in the affidavit: $23,425.36.” Show Cause
Order at 4. I replied as follows:
Even though I never received a
copy of the former judge's Order of
August 9, 2019 and never read that
Order until late September, I effectively
did challenge the amount by filing a
motion on August 15, 2019 for the
former judge to recuse himself on the
grounds that he was chronically
usurping the role of the jury and
committing one reversible error after
another. Young's Brief at 23.

35

I wrote:
WHEREFORE, I respectfully
request that this Court vacate and
withdraw
its
prematurely-entered
Order of February 20, 2020, set the
total amount of CR 11 sanctions to be
paid by me to any and all of the
Defendants at $0.00, and perform the
absolutely essential task that neither
the circuit court nor the Court of
Appeals ever did: review my Complaint
and find and declare in writing that it
meets the requirements of CR 8 and the
notice pleading system that was
established throughout all fifty states
more than eight decades ago. Young's
Brief at 25.
In my March 10, 2020 response to the
Kentucky Supreme Court's show cause order, I
wrote:
Argument A — This Court should not
impose any sanctions on me and should
sanction the KET Appellees for
defrauding three courts in this case
(so far).
...If none of the former judge’s dismissal
or sanctions orders were lawful, then

36

none of them were legitimate final
orders. They were all nullities, in the
words of the decision in City of Covington
v. Peare, 769 S.W.2d 761, 764 (Ky. Ct.
App. 1989) The Court of Appeals should
never have reached the question of
whether these null and void orders were
injunctions.
In my brief, I argued that the
KET Defendants, by counsel, made
many false statements in their May 1,
2019 motion to dismiss and for
sanctions, that those false statements
were reflexively repeated by the former
judge in his Order of May 21, and that
the KET Defendants are the ones who
should have been ordered to pay CR 11
sanctions to me. The nine most
important false statements, which
counsel for the KET Defendants knew
or should have known were false, were:
(1) “These pleaded facts do not give rise
to any viable claim against the KET
Defendants.” Motion to Dismiss and for
Sanctions at 4; (2) “Young simply states
no cognizable claim against KET.” Id.;
(3) “Section 6 of the Kentucky
Constitution does not apply to primary
elections - it only applies to general
elections” Id. at 7; (4) “Young's
Complaint... does not, however, allege

..^

37
any facts from which one could conclude
that KET acted in concert with any
other Defendant...” Id. at 8; (5) “As
explained above, Young's Complaint
does not assert a viable constitutional
claim.” Id. at 9; (6) “(The First and 14th
Amendments and the common law that
makes assault and battery actionable in
a civil lawsuit were) not 'clearly
established' when the challenged
conduct occurred.” Id.; (7) “Even the
most cursory inquiry confirms that
Young's claims against the KET
Defendants are unsupportable in fact
and law.” Id. at 11; (8) “Young's 123page complaint is pure harassment not only of the Defendants, but of this
Court and its valuable time.” Id.; and
(9) “And there is absolutely no fact
pleaded in the 123-page Complaint that
in any way, shape or form alleges or
would serve as a foundation for a civil
conspiracy claim against any of the KET
Defendants. It doesn't allege who they
conspired with, what the illegal action
was, when it happened, where it
happened, anything, there is no fact
supporting a conspiracy claim against
any of my clients.” [Chris Brooker's
statement in open court on May 17,
2019; Motion Hour #2 at 11:05 am]...
False statements number 1, 2, 4,

38
5, 7 and 9 - or any one of them - should
have been fatal to the KET Defendants'
motion to dismiss and for sanctions. In
my response dated May 13, 2019, I
pointed out most of these lies to the
circuit court and asked it to reread my
Complaint carefully in the context of 85
years of decisions by the U.S. Supreme
Court, every federal appeals court in the
country, and this Court, e.g., the
decision in Pari-Mutuel Clerks’ Union
v. Ky. Jockey Club, 551 S.W.2d 801, 803
(Ky. 1977), in which this Court
instructed as follows: “The court should
not grant the motion (to dismiss the
complaint for failure to state a claim)
unless it appears the pleading party
would not be entitled to relief under any
set of facts which could be proved in
support of his claim. Clay, Ky. Prac.,
3rd Ed., Civil Rule 12.02, Comment 9,
n. 17.” But because former judge John
E. Reynolds never seriously considered
my Complaint or any of my responses to
various Defendants' motions to dismiss,
he never found and declared that any of
the nine statements cited above were
false and therefore sanctionable.
Similarly, because the Court of
Appeals never seriously considered my
Complaint or any of my responses to
various Defendants' motions to dismiss

39
in the context of CR 8, it too never
found and declared that any of those
nine statements were false and
therefore sanctionable.
And similarly, because this high
Court has not yet seriously considered
my Complaint or any of my responses to
various Defendants' motions to dismiss
in the context of CR 8, it never found
and declared that any of those nine
statements were false and therefore
sanctionable. Young's Response to Show
Cause Order at 4-6.
/
The foregoing makes it clear that the
Kentucky Supreme Court's statement to the effect
that I “ failed to mention the proposed sanctions
until the July 23, 2020, filing of his motion to amend
his cross-motion for sanctions” is false on its face. I
thoroughly addressed the sanctions proposed by the
Supreme Court of Kentucky in my two pleadings on
March 3 and March 10, 2020.
The next sentence in the Order is also false on

r

♦

:

40
its face: “Young's tardy response misapprehends the
authority of this Court to impose such sanctions and
wholly fails to address the merits of the question.”
(1) None of my pleadings were tardy; (2) I addressed
the merits of the question in all of my pleadings; and
(3) CR 73.02(4) reads as follows:
If an appellate court determines that an
appeal or motion is frivolous, it may
award just damages and single or
double costs to the appellee or
respondent. An appeal or motion is
frivolous if the court finds that it is so
totally lacking in merit that it appears
to have been taken in bad faith.
If the Supreme Court of Kentucky had found
\

that any of the KET Defendants' pleadings had been
totally lacking in merit, it would have had the
authority to impose sanctions against them, payable
to me, in any amount up to $26,217.90, i.e., double
the amount shown on their affidavit; or even larger

41
“damages.” I didn't “misapprehend” anything.
Because the two cited sentences represent the
core of the Kentucky Supreme Court's final order
dismissing Case No. 2019-SC-0625-I (where “I”
stands for “Interlocutory”), and because none of the
other findings or ordering sentences in the order
were supported by any legal reasoning at all, the
final order should be overturned in its entirety.
Kentucky Civil Rule 76.28(l)(b), Opinions,
reads as follows:
(1) Written Opinions.
(b) Opinions and orders finally deciding
a case on the merits shall include an
explanation of the legal reasoning
underlying the decision.
Other than the falsehoods about my failing to
mention the proposed sanctions and my responding
too late, the Supreme Court of Kentucky failed and

42
refused to explain the legal reasoning underlying any
/

of its ordering sentences.
REASONS WHY CERTIORARI SHOULD BE
GRANTED
Ever since March, 2015,1 have been filing
KRS 118.176 ballot challenges and normal lawsuits
against the KDP for illegally rigging its own
primaries and violating KRS 118.105(1). In 2020,1
filed my first ballot challenge against a Republican
candidate and the Republican Party of Kentucky
(RPK). My civil actions have invariably been hit by
meritless and frivolous CR 12.02(f) motions to
dismiss, and the circuit courts invariably grant said
motions without ever construing the allegations in
my initiating document favorably to the plaintiff.
The Kentucky Court of Appeals invariably refuses to
overturn the erroneous decision of the circuit court,

43
and the Supreme Court of Kentucky almost never
reviews the case. In 2019, the Supreme Court got
involved in this case solely in order to add to the
unlawful sanctions imposed by the courts below. If
that final decision is not overturned, I will soon be
barred from every courtroom in Kentucky for
refusing to drop my demand that the KDP and RPK
stop rigging their own primaries. Sooner or later,
Kentucky's Judicial Department might also strip me
of everything I own in order to reward the
defendants and their lawyers for lying to one court
after another about the law and the facts. App. a4a5. The end result will be that corruption in
Kentucky will become even more solidly entrenched
than it is now, especially in the realm of politics.
CONCLUSION
The final order that is the subject of this

44
petition for certiorari is not an order that would be
entered by any court that is confident in the justice
of its position. This Court may wish to consider
summary reversal of the Kentucky Supreme Court's
final order, in its entirety, on the grounds that it is
wholly unsupported by law and by the facts.
Respectfully signed on December 1, 2020, and
again (revised to add App. 2) on January 11, 2021.

Geoffrey M. Young, pro se
454 Kimberly Place
Lexington, KY 40503
(859) 278-4966
Email: energetic22@yahoo.com
List of Attorneys Who Represented the KET
Defendants in Favette Circuit Case No. 19-CI-01349
Christopher W. Brooker (Counsel of Record)
and Deborah H. Patterson
Wyatt, Tarrant & Combs, LLP
500 West Jefferson St., Suite 2800
Louisville, KY 40202-2898
Counsel for Kentucky Authority for Educational

45
Television, Todd PiccirUli, and Donna Moore
Campbell
Jane Graham
Counsel for Donna Moore Campbell
Henry, Watz, Raine & Marino, PLLC
401 West Main St., Suite 314
Victorian Square
Lexington, KY 40507

APPENDIX - TABLE OF CONTENTS
1. Final Order denying Petitioner's motion
for reconsideration, motion to amend his cross­
motion for sanctions against the Kentucky Authority
for Educational Television (KET) and its attorneys,
and his cross-motion for sanctions
al-a5
2. Order Enforcing Sanctions
Entered April 30, 2020 .............................

a5-a7

